                                                        ADVISORY




RECOVERY OVERSIGHT ADVISORY
Summary of Recovery Oversight Office Outreach Efforts
between October 2010 and February 2011




Report No.: RO-F-MOA-058-2011                             June 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                     JUN 1 5 2011

To:            Chris Henderson
               Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:          Robert A. Kno~ ~-:t
               Assistant I~ G~fur ~ecovery Oversight

Subject:       Recovery Oversight Advisory - Summary of Recovery Oversight Office Outreach
               Efforts between October 2010 and February 2011
               Report No. RO-F-MOA-058-2011

        This advisory summarizes outreach activities of the Recovery Oversight Office (ROO)
between October 2010 and February 2011. As part of our ongoing efforts to oversee and ensure
the accountability of funding appropriated to the U.S. Department of the Interior (DOl) in the
American Recovery and Reinvestment Act of 2009 (Recovery Act), ROO conducted a number of
interviews, teleconference calls, and visits to project work sites and bureau contracting offices to
gather project information and discuss fraud prevention with key project officials. In total, we
conducted 42 visits in 15 states, discussed fraud with over 165 individuals, and addressed 58
Recovery Act projects totaling approximately $155,703 ,045 .

Background

         A key focus ofthe Recovery Oversight Office is prevention, detection, and reporting. To
that end, beginning in October 2010 through February 2011 , ROO conducted a series of outreach
activities to discuss fraud prevention with key project officials, and to gather information
concerning the implementation and status of Recovery Act projects. We spoke with contractors,
grantees, and program officials from 6 bureaus, about 58 Recovery Act projects totaling
approximately $155,703,044.85. In late March, we issued a survey to officials from each site to
gather information about the fraud prevention component of their visit with ROO staff.

Findings

       We found no significant issues in almost half of our visits. In the remaining meetings, we
encountered minor issues, not uncommon to contract administration, that were being adequately
handled by procurement staff.

         In the survey issued after the site visits, 93 percent of survey respondents indicated they
felt that the fraud prevention information presented during the visit improved their knowledge or
ability to reduce fraud, waste, and mismanagement. The remaining 7 percent of respondents did
not address this question, so we cannot say whether the information had a positive or negative
impact on their knowledge.




                                Recovery OverSight Office I Washington. DC
       Sites visited:

                                                              No. of
      Bureau                                    State                     Total Funds
                                                             Projects
      Bureau of Indian Affairs (BIA)       North Carolina       1          $ 1,586,831.00
                                           Colorado
      Bureau of Land Management (BLM)                           6         $23,531,059.57
                                           Florida
                                           Arizona
                                           Arkansas
                                           Colorado
                                           Florida
      Fish and Wildlife Service (FWS)                           16        $37,446,000.24
                                           North Carolina
                                           Ohio
                                           Tennessee
                                           Wisconsin
                                           California
                                           Colorado
                                           Florida
                                           Kentucky
                                           Maryland
      National Park Service (NPS)                               23         $34,354,045.36
                                           New Mexico
                                           North Carolina
                                           Ohio
                                           Virginia
                                           West Virginia
                                           California
      U.S. Bureau of Reclamation (USBR)                         6          $36,703,952.49
                                           Colorado
                                           Colorado
                                           Ohio
      U.S. Geological Survey (USGS)                             6          $22,081,156.19
                                           Pennsylvania
                                           Wisconsin
      Total                                                     58        $155,703,044.85

        We will post this advisory on our Web site (www.doioig.gov/recovery/) and on
Recovery.gov. Information contained in this advisory may also be included in our semiannual
reports to Congress. We performed our work in accordance with the applicable Quality
Standards for Inspection and Evaluation adopted by the Council of the Inspectors General on
Integrity and Efficiency. Please contact me, if you have any questions.

cc:    Deputy Secretary, U.S. Department of the Interior
       Director, Office of Executive Secretariat and Regulatory Affairs
       Assistant Secretary for Policy, Management, and Budget
       Acting Director, Office of Financial Management
       Director, Office of Acquisition and Property Management
       Departmental GAO/ OIG Audit Liaison
       Audit Liaison, Office of the Secretary




                                                                                              2
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
